   REVIEW OF CONTROLS WITHIN
 FAS’S OFFICE OF INFRASTRUCTURE
  OPTIMIZATION – HSPD-12 BRANCH
REPORT NUMBER A100055/Q/A/P10010

        September 13, 2010




                                    
                                                                                           

Date:           September 13, 2010

Reply to        James P. Keegan
Attn of:        Audit Manager, Acquisition Programs Audit Office (JA-A)

Subject:        Review of Controls within FAS’s Office of Infrastructure Optimization –
                HSPD-12 Branch, Report Number A100055/Q/A/P10010

To:             Steven J. Kempf
                Commissioner, Federal Acquisition Service (Q)


This report presents the results of the Office of Inspector General’s (OIG) review of
controls within the Federal Acquisition Service’s (FAS) Office of Integrated Technology
Services, Office of Infrastructure Optimization’s Homeland Security Presidential
Directive-12 (HSPD-12) program.


Background
HSPD-12 is designed to enhance security, reduce identity fraud, and protect personal
privacy. It establishes a mandatory, government-wide standard for secure and reliable
forms of identification for federal employees and contractors.       The Office of
Management and Budget designated the General Services Administration (GSA) the
lead agency for providing HSPD-12 and other identity management systems to federal
agencies. In response, GSA created the HSPD-12 Managed Service Office (MSO) in
fiscal year 2006. The MSO offers customer agencies fee-based services to implement
HSPD-12.


Objective, Scope, and Methodology
The objective of our review was to determine if HSPD-12 program procurement
activities are compliant with federal procurement regulations.

To accomplish our objective, we performed the following steps:

      •   Reviewed relevant reports from the Government Accountability Office (GAO),
          GSA’s Office of Inspector General, and GSA.
      •   Identified and reviewed relevant laws, regulations, and policy.
      •   Interviewed and held discussions with cognizant GSA, Office of General Counsel
          (OGC), FAS, and MSO personnel.


                                              2

 
 



       •      Reviewed and analyzed the HSPD-12 Shared Service Provider II contract,
              modifications, and orders.
       •      Reviewed background information on the HSPD-12 program and the MSO’s
              operations, guidance, and controls.

We conducted this performance audit from October 2009 through January 2010 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives.


Results of Review
The MSO did not consistently conduct HSPD-12 program procurement activities in
compliance with GSA policy and federal procurement regulations. Our review disclosed
violations of the GSA system for the administrative control of funds and the Federal
Acquisition Regulation (FAR), as well as potential violations of the bona fide needs rule.
In addition, the MSO uses an Interagency Agreement (IA) that is not consistent with a
December 2009 GAO Decision. 1 These problems were caused by several factors.
First, the structure of the contract between the MSO and its HSPD-12 contractor
impeded fund management. Consequently, the MSO exceeded its spending authority.
Second, all HSPD-12 support was viewed as nonseverable. As a result, customer
agencies may have improperly crossed fiscal years with obligated funds. Third,
customer service was emphasized over sound procurement practices leading MSO
personnel to exceed their procurement authority.

During this review, we determined that the MSO has begun taking steps to address
these issues. To further improve the program, we believe management should consider
alternative contract structures when recompeting the HSPD-12 contract. Further,
management should evaluate the MSO’s current IA and business processes while
continuing to work with the GSA’s OGC to address the recent GAO decision.

Current Contract Structure Impedes the Management of Funds
Under the current contract structure, customer agencies place orders for optional
services and hardware through the MSO; however, these same customer agencies
initiate mandatory enrollment and maintenance services directly with the HSPD-12
contractor. The costs and initial timing of the mandatory enrollment and maintenance
services are unknown to the MSO until it receives the invoice from the contractor. This


                                                            
1
  The December 2009 GAO Decision B‐318425 (Appendix A) determined that HSPD‐12 services are severable, i.e. 
they provide usable services in steps or phases.  In contrast, nonseverable services do not provide benefit until 
they are fully completed; this delayed benefit allows for additional flexibility when funding nonseverable services.  

                                                               3

 
 


time lag in expense recognition contributed to the violation of the GSA Directive, ADM
4200.2B, GSA system for the administrative control of funds. 2

As awarded, the HSPD-12 contract base period was funded at $25 million. However,
by March 2009 the MSO had incurred obligations for invoiced HSPD-12 hardware and
services that exceeded this contract funding limit by over $2 million. A modification was
executed adding additional funding to this contract in April 2009. Nevertheless, we
asked MSO management to seek a formal determination as to whether a violation of the
Antideficiency Act 3 (ADA) and/or GSA Directive 4200.2B had occurred. The FAS
Controller’s Office and the GSA Office of the Chief Financial Officer concurred with the
determination that no ADA violation took place, but that exceeding the contract ceiling
had resulted in a violation of GSA Directive 4200.2B.

The MSO also informed us of two instances when customer agency obligations
exceeded the available funding of these agencies. MSO management stated that in
these cases, the MSO withheld invoicing the affected customer agencies until these
agencies were able to obtain additional funding.

The MSO recognizes the problems associated with managing funding under the current
contract. The MSO plans to recompete the contract and is considering options that
include a direct-buy, direct-bill structure and/or business processes that would relieve
the MSO of fund management activities. In the interim, the MSO is aggressively
tracking obligations against funding.

Potential Bona Fide Needs Rule Violations
The bona fide needs rule, 31 U.S.C. 1502(a), requires fiscal year appropriations be
obligated to meet a legitimate need only in the fiscal year for which the appropriation
was made. Therefore, the cost of severable services – those that provide a benefit
each time the service is rendered – must be charged to the appropriation current at the
time services are provided. 4 In contrast, the rule allows obligations for nonseverable
services to cross fiscal years because the desired benefit is obtained upon completion
of the entire project.

The MSO’s current business model and IA are based on the interpretation that all
HSPD-12 support is nonseverable. However, in December 2009, the GAO issued a
determination that HSPD-12 services are severable (Appendix A). If this determination
stands, some customers placing orders using this IA may have violated the bona fide
needs rule by inappropriately crossing fiscal years when obligating funds for contract
services. Similar violations may have occurred for severable hardware support,
regardless of GAO’s final determination regarding services.
                                                            
2
   GSA Directive 4200.2B applies within GSA to all appropriations and funds, and lists prohibited actions, as well as 
procedures for reporting violations of administrative control procedures. 
3
   The Antideficiency Act, 31 U.S.C. § 1341(a)(1), prohibits making or authorizing expenditures in excess of the 
amount available in an appropriation or fund unless authorized by law.   
4
   The bona fide needs rule does permit the period of performance for severable services to cross fiscal years for up 
to one year, but only appropriations current at the time the agencies enter into the contract may be obligated. 

                                                               4

 
 



The GAO decision also raises ADA concerns due to the prohibition on incurring
obligations to pay for severable services to be performed in future fiscal years. The
GAO stated that the MSO’s IA does not include an agreed upon period of performance
and “exposes [the client agency] to an unknown and unlimited liability.” The GAO
decision did note that the proposed IA with the client agency could be revised so that it
would not violate the ADA.

The MSO expressed concern about continuing to use its IA in light of the GAO decision
and informed us that they are working with OGC on a resolution of the problem. OGC
confirmed this, but as of the issuance date of this report, this issue had not been
resolved.

Violations of FAR Requirements for Acquisition Authority
MSO personnel who did not have contracting authority placed multiple customer agency
orders in violation of FAR Subpart 1.6. In addition, prices for 231 of 513 (45 percent) of
these orders were undeterminable because they did not have ceilings or not-to-exceed
limits. This placed the Government at risk for open-ended obligations with the HSPD-12
contractor. In response, a contracting officer assigned to the contract in August 2008
revised some of the improper orders to include ceilings and not-to-exceed limits, and
placed stop work orders on others. Further, the MSO no longer places any orders, but
notifies a contracting officer who reviews all orders, confirms funding, and then places
the orders.


Conclusion
Our review found that the MSO did not consistently conduct HSPD-12 program
procurement activities in compliance with GSA policy and federal procurement
regulations. The MSO’s current contract structure contributed to a violation of GSA
policy. In addition, potential bona fide needs violations occurred due to the use of an IA
based on the interpretation that all HSPD-12 support was nonseverable. Further, an
overemphasis on customer service resulted in MSO personnel violating FAR acquisition
authority requirements. The MSO has recognized these issues, and has taken steps to
implement interim control measures while working to enact permanent solutions.


Recommendations
We recommend that the Commissioner of the Federal Acquisition Service direct the
MSO to:

    1. Continue its on-going efforts for the recompete of its HSPD-12 contract. These
       efforts should include consideration of contract structures (direct-buy, direct-bill,
       or similar) and/or business processes that remove the MSO from a fund
       management or customer billing role.



                                             5

 
 


    2. Continue to work with GSA’s OGC to resolve the MSO’s management of
       customer agency funding in light of the GAO Decision B-318425 that stated
       HSPD-12 services are severable. Business process considerations should
       include developing IAs for specific hardware and/or services to ensure proper
       management of client funds.


Management Comments
In his August 23, 2010, response to the draft report, the Commissioner of FAS agreed
with the first recommendation. The Commissioner of FAS also responded that FAS is
currently working with OGC to respond to GAO’s opinion; therefore, it will not be
possible to respond to the second recommendation of the report until the determination
is made on how FAS proceeds on this subject.


Internal Controls
We reviewed controls in the above topical areas.




                                          6

 
                  




    Appendix A




 
    REVIEW OF CONTROLS WITHIN FAS’S OFFICE OF INFRASTRUCTURE
                 OPTIMIZATION – HSPD-12 BRANCH
                REPORT NUMBER A100055/Q/A/P10010

                 Appendix A – GAO Decision B-318425




                               A-1

 
    REVIEW OF CONTROLS WITHIN FAS’S OFFICE OF INFRASTRUCTURE
                 OPTIMIZATION – HSPD-12 BRANCH
                REPORT NUMBER A100055/Q/A/P10010

                 Appendix A – GAO Decision B-318425




                               A-2

 
    REVIEW OF CONTROLS WITHIN FAS’S OFFICE OF INFRASTRUCTURE
                 OPTIMIZATION – HSPD-12 BRANCH
                REPORT NUMBER A100055/Q/A/P10010

                 Appendix A – GAO Decision B-318425




                               A-3

 
    REVIEW OF CONTROLS WITHIN FAS’S OFFICE OF INFRASTRUCTURE
                 OPTIMIZATION – HSPD-12 BRANCH
                REPORT NUMBER A100055/Q/A/P10010

                 Appendix A – GAO Decision B-318425




                               A-4

 
    REVIEW OF CONTROLS WITHIN FAS’S OFFICE OF INFRASTRUCTURE
                 OPTIMIZATION – HSPD-12 BRANCH
                REPORT NUMBER A100055/Q/A/P10010

                 Appendix A – GAO Decision B-318425




                               A-5

 
    REVIEW OF CONTROLS WITHIN FAS’S OFFICE OF INFRASTRUCTURE
                 OPTIMIZATION – HSPD-12 BRANCH
                REPORT NUMBER A100055/Q/A/P10010

                 Appendix A – GAO Decision B-318425




                               A-6

 
    REVIEW OF CONTROLS WITHIN FAS’S OFFICE OF INFRASTRUCTURE
                 OPTIMIZATION – HSPD-12 BRANCH
                REPORT NUMBER A100055/Q/A/P10010

                 Appendix A – GAO Decision B-318425




                               A-7

 
    Appendix B




 
REVIEW OF CONTROLS WITHIN FAS’S OFFICE OF INFRASTRUCTURE
             OPTIMIZATION – HSPD-12 BRANCH
            REPORT NUMBER A100055/Q/A/P10010

             Appendix B – Management Comments




                           B-1
 




    Appendix C
      REVIEW OF CONTROLS WITHIN FAS’S OFFICE OF INFRASTRUCTURE
                   OPTIMIZATION – HSPD-12 BRANCH
                  REPORT NUMBER A100055/Q/A/P10010

                            Appendix C – Report Distribution

                                                                   Copies

Commissioner, Federal Acquisition Service (Q)                        3

Internal Audits and Control Division (BEI)                           1

Assistant Inspector General for Auditing (JA & JAO)                  2

Assistant Inspector General for Investigations (JI)                  1

Deputy Assistant Inspector General for Contract Audits (JA-C)        1

Deputy Assistant Inspector General for Acquisition Audits (JA-A)     1




                                             C-1

 
